<html>
<title> - HEARING ON THE 2008 AUDIT REVIEW AND AGENCY SPENDING BY THE ELECTION ASSISTANCE COMMISSION</title>
<body><pre>[House Hearing, 110 Congress]
[From the U.S. Government Printing Office]


 
 HEARING ON THE 2008 AUDIT REVIEW AND AGENCY SPENDING BY THE ELECTION 
                         ASSISTANCE COMMISSION 

=======================================================================

                                HEARING

                               before the

                       SUBCOMMITTEE ON ELECTIONS

                   COMMITTEE ON HOUSE ADMINISTRATION
                        HOUSE OF REPRESENTATIVES

                       ONE HUNDRED TENTH CONGRESS

                             FIRST SESSION

                               __________

                 HELD IN WASHINGTON, DC, APRIL 1, 2007

                               __________

      Printed for the use of the Committee on House Administration


                       Available on the Internet:
   http://www.gpoaccess.gov/congress/house/administration/index.html
                   Committee on House Administration

                               ----------
                         U.S. GOVERNMENT PRINTING OFFICE 

52-315 PDF                      WASHINGTON : 2009 

For sale by the Superintendent of Documents, U.S. Government Printing 
Office Internet: bookstore.gpo.gov Phone: toll free (866) 512-1800; 
DC area (202) 512-1800 Fax: (202) 512-2104 Mail: Stop IDCC, 
Washington, DC 20402-0001 











                ROBERT A. BRADY, Pennsylvania, Chairman
ZOE LOFGREN, California              DANIEL E. LUNGREN, California
  Vice-Chairwoman                      Ranking Minority Member
MICHAEL E. CAPUANO, Massachusetts    KEVIN McCARTHY, California
CHARLES A. GONZALEZ, Texas           GREGG HARPER, Mississippi
SUSAN A. DAVIS, California
ARTUR DAVIS, Alabama
                 S. Elizabeth Birnbaum, Staff Director
               Victor Arnold-Bik, Minority Staff Director
                                 ------                                

                       Subcommittee on Elections

                  ZOE LOFGREN, California, Chairwoman
CHARLES A. GONZALEZ, Texas           KEVIN McCARTHY, California
  Vice-Chairman                      GREGG HARPER, Mississippi
SUSAN A. DAVIS, California
ARTUR DAVIS, Alabama


   2008 AUDIT REVIEW AND AGENCY SPENDING BY THE ELECTION ASSISTANCE 
                               COMMISSION

                        WEDNESDAY, APRIL 1, 2009

                  House of Representatives,
                         Subcommittee on Elections,
                         Committee on House Administration,
                                                    Washington, DC.
    The subcommittee met, pursuant to call, at 10:05 a.m., in 
Room 1310, Longworth House Office Building, Hon. Zoe Lofgren 
[chairwoman of the subcommittee] presiding.
    Present: Representatives Lofgren, Gonzalez, Davis of 
California, McCarthy, and Harper.
    Staff Present: Thomas Hicks, Senior Election Counsel; 
Jennifer Daehn, Election Counsel; Janelle Hu, Election Counsel; 
Kyle Anderson, Press Director; Kristin McCowan, Chief 
Legislative Clerk; Daniel Favarulo, Election Legislative 
Assistant; Peter Schalestock, Minority Counsel; and Karin 
Moore, Minority Legislative Counsel.
    Ms. Lofgren. As it is precisely 10:00, or close to it, the 
committee will come to order.
    Good morning and welcome. This is our first oversight 
hearing under H.Res. 40. And the hearing will focus on the 2008 
audit review by the Inspector General of the U.S. Election 
Assistance Commission. The audit found that the EAC was unable 
to provide sufficient accounting records to conduct an audit in 
compliance with the standards set forth by the Comptroller of 
the United States.
    Today we will discuss potential misallocation of resources, 
lack of internal controls on matters related to grant 
accounting and agency expenditures. Unfortunately, this most 
recent report is one in a string of reports about the EAC's 
inability to operate as a fully functioning agency. The EAC's 
first audit of financial statements in fiscal year 2008 could 
not be completed because the EAC was unable to provide 
sufficient accounting records to conduct an audit in accordance 
with the standards set forth by the comptroller general.
    Additional IG reports have also revealed that the EAC lacks 
adequate policies and procedures that govern the application 
award reporting, oversight, and closing of HAVA grant programs. 
The EAC also does not have a fund control to monitor 
expenditures to ensure compliance with congressional 
requirements.
    This lack of financial controls has resulted in travel 
being taken without prior authorization, activities that take 
the EAC out of compliance with the Federal travel regulations.
    Beyond the audit concerns, EAC has also engaged in 
questionable management of resources. The EAC has recently 
posted a job announcement for another executive position, which 
would push the senior staff count to 21 out of a total of 35 
total full-time employees. And while I appreciate the EAC 
trying to hire staff, it seems it would make more sense to 
ensure that mid-level staff is in place to carry out the EAC's 
programmatic responsibilities.
    The IG report warns that while hiring qualified 
administrative staff goes a long way towards improving EAC's 
financial management function, the EAC should use caution to 
avoid staffing one program or function to the detriment of its 
other programs.
    The EAC has been before us several times and has listened 
to our concerns about the agency's management practices and has 
taken some steps to correct these problems, and we do want to 
acknowledge that. The EAC has recently hired a chief financial 
officer and a chief operating officer to manage financial 
operations and install funding controls. The EAC has also 
restructured its grant division into two departments to improve 
program operations.
    Now, I am eager to hear what additional steps the EAC will 
be taking to increase the Commission's accountability this 
morning. The EAC plays a critical role in funding and assisting 
States to improve election processes. It must continue to 
develop effective financial controls to implement these 
processes so that we know grants and agency funds are being 
accounted for and appropriately used.
    This hearing today, I hope, will not only lay out for us in 
greater detail the IG's advice and findings, but also give us 
an opportunity from the EAC themselves to hear what their 
action plan and thoughts are.
    [The statement of Ms. Lofgren follows:]

    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
    
    Ms. Lofgren. At this point I would yield to the gentleman 
from Mississippi for any opening statement he may have.
    Mr. Harper. Thank you very much, Chairwoman Lofgren. I 
certainly want to thank the Chair for calling today's EAC 
oversight hearing. As a new member on this panel, any chance to 
learn more about the organizations under this subcommittee's 
jurisdiction is very helpful. And I look forward to hearing 
from our EAC commissioners as well as the inspector general and 
the executive director of the EAC.
    I have had the opportunity to review the findings of the 
EAC's inspector general, and I am concerned with several areas 
of weakness that were uncovered by the IG's office during the 
course of compiling its report. For example, I understand that 
the initial audit of the EAC's financial records revealed such 
poor recordkeeping that a comprehensive financial analysis 
could not be completed.
    While some issues with recordkeeping are certainly expected 
the first time an organization's financial records are audited, 
I am anxious to hear from our witnesses today regarding the 
state of the EAC's financial statements and what can be done to 
bring them into compliance with acceptable accounting 
practices.
    In addition, I also understand that the IG's findings 
revealed a notable disparity between the number of 
administrative positions at the EAC compared with the number of 
program positions. The IG's report revealed that the EAC 
currently has 21 positions that are designated as executive, 
direction and administration, with only 14 positions in 
program, legal and communications areas.
    Perhaps our witnesses can shed some light on hiring 
practices at the EAC and who determines what types of roles are 
mission critical in light of the Commission's priorities. For 
example, one of the key roles of the EAC is to certify voting 
machines for use in Federal elections. My understanding is that 
to date only one system has been certified, as a result of a 
backlog at the EAC.
    Election officials and vendors alike have expressed 
frustration at the slow pace of the certification. So I have to 
question why resources are being allocated towards executive 
and administrative expenses when it seems that there is a real 
need to engage in substantive program work in order to fulfill 
the mission.
    An organization that is heavily weighted towards executive 
and administrative personnel certainly may lend itself to 
bureaucracy. How is the EAC applying effective personnel 
practices in order to ensure that the organization is able to 
carry out its charters defined by HAVA, without getting bogged 
down in bureaucratic processes.
    Finally, I understand that the inspector general has 
provided the EAC with a list of recommended actions to address 
these and other gaps in internal operations. I would like to 
get an update from our witnesses on the current status of this 
list and how to address internal barriers in the organization 
that may prevent the EAC from implementing these 
recommendations.
    Again, I thank all of our witnesses for appearing before us 
today and look forward to hearing your testimony.
    Thank you, Madam Chairman. I reserve the balance of my 
time.
    Ms. Lofgren. Thank you.
    [The statement of Mr. Harper follows:]

    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
    
    Ms. Lofgren. And, Mrs. Davis, unless you are eager to, we 
will put your opening statement in the record and go directly 
to the inspector general, Mr. Curtis Crider.
    [The information follows:]
    Ms. Lofgren. Mr. Crider is the Inspector General for the 
U.S. Election Assistance Commission and has held this position 
since 2006. Mr. Crider has 32 years of auditing experience in 
the Federal Government and is a certified public accountant and 
internal auditor.
    Mr. Crider we do have your full report and, by unanimous 
consent, it will be made part of our official record. We would 
ask that your oral testimony consist of about 5 minutes, and 
then we will have time to ask you questions. So we are eager to 
hear from you now.

 STATEMENT OF CURTIS CRIDER, INSPECTOR GENERAL, U.S. ELECTION 
                     ASSISTANCE COMMISSION

    Mr. Crider. Good morning. Thank you very much. Chairman 
Lofgren, Ranking Member McCarthy and members of the 
subcommittee, thank you for having me to testify today.
    I am pleased to be here this morning to discuss the 
activities of the Office of the Inspector General and to 
provide insight as to the effectiveness of financial controls 
in place and efficiency of programs operated by the U.S. 
Election Assistance Commission.
    OIG strives to promote economy, efficiency and 
effectiveness in the EAC programs by conducting regular audits 
of recipients of grant funds distributed by the EAC and the 
financial audit of EAC's operations and periodic reviews and 
audits of EAC operations. In addition, the OIG conducts 
investigations in response to allegations against the EAC, 
grant recipients, or third parties involved in the EAC 
programs.
    In today's testimony I will focus on the OIG audits of HAVA 
fund recipients and the EAC. OIG has issued audits of 19 States 
and their spending of nearly $800 million. These audits result 
in questioning more than $11.7 million in costs and identified 
more than $10.7 million which the States must use for HAVA-
related purposes. In total, the OIG has identified $22.4 
million in audit findings at a cost of only $2 million to the 
Federal Government. In other words, our rate of return is 11 to 
1.
    The EAC management has agreed with most of our findings and 
upheld more than $20.9 million of the $22.4 million in audit 
exceptions. By and large, we have found that States are not 
misusing HAVA funds. When we have found problems they are in 
the areas such as lost interest, unsupported salaries and 
understated matching funds.
    My written testimony contains a more complete listing of 
our findings that we have issued in our audits. We have 
currently four ongoing audits of States that are using HAVA 
funds. They are California, Iowa, Rhode Island and Michigan. 
OIG has planned to audit several more States this year, but the 
number of States that we audit will depend upon the time, 
resources and circumstances and may require our investigation 
in other areas.
    OIG is also responsible for auditing and reviewing EAC's 
programs. Over the past several years the OIG has issued eight 
reports regarding the EAC operations. The two most 
comprehensive reports are the 2008 Assessment of EAC's Programs 
and Financial Operations, which we issued in February of 2008, 
and the Audit of EAC's Fiscal Year 2008 Financial Statements, 
which was issued in November of 2008. All eight reports except 
for one, the Internet Usage Report, contain findings and 
recommendations for the EAC to improve its processes.
    In the Internet usage report, we found that employees did 
not use gambling, pornographic or other prohibited sites, and 
the EAC has sufficient controls to prevent unauthorized access 
to those sites. From the eight reports are 82 recommendations 
for improvement, of which 14 have been fully implemented.
    The EAC has made some progress toward implementing most of 
the other recommendations. Progress can be seen primarily in 
the areas of personnel reorganization and hiring persons to 
staff the administration division that have experience with 
Federal Government, procurement, and financial management.
    While hiring qualified administrative staff goes a long way 
to improving the EAC's fiscal and financial management 
function, the EAC should use caution to avoid staffing one 
program or function to the detriment of its other programs. 
Based on its own reports, the EAC only last week adopted a 
strategic plan and has not yet adopted policies and procedures 
needed to underlie the operations for many of its programs.
    In fiscal year 2009 the EAC will again be subject to a 
financial audit. Without these needed policies and procedures, 
the EAC may have difficulty in meeting the benchmarks necessary 
to receive an unqualified opinion.
    In addition to the fiscal year 2009 financial statement 
audit, the OIG plans to review EAC's Compliance with the 
Federal Information Security Management Act, evaluated EAC's 
purchase of shirts and jackets for its employees, and assessed 
EAC's internal controls over time and attendance.
    It is the Office of Inspector General's role to offer 
guidance and information through its audits, evaluation reviews 
and investigation that will help the EAC build and run programs 
that will instill public confidence by preventing fraud, waste 
and abuse.
    The Office of Inspector General will continue to work with 
the EAC and this subcommittee to help promote an efficient and 
effective government. I appreciate the opportunity this morning 
to provide this testimony regarding the OIG activities, and I 
will be happy to answer any questions. Thank you.
    Ms. Lofgren. Thank you very much Mr. Crider.
    [The statement of Mr. Crider follows:]

    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
    
    Ms. Lofgren. I would turn first to the gentleman from 
Mississippi to see what questions he may have.
    Mr. Harper. Thank you very much. I appreciate you being 
here today and testifying before us. And I guess the first 
question I would have is your analysis of where they are on the 
progress, based upon your last visit with them.
    Mr. Crider. I think everybody should understand that this 
was the first year the EAC was audited, had its financial 
statements audited. A disclaimer in the first year is not 
uncommon because of having to go back and establish the 
beginning balances. And some of the accounting issues that were 
identified go back a number of years, even before there was an 
EAC, when GSA was doing the accounting for it. And that is 
where some of the issues and some of the findings in the report 
are.
    The fact that EAC has hired a chief financial officer I 
think is very promising. I think that that will help a lot. But 
we are very concerned at this point that some of the accounting 
issues have not been resolved--and we are getting ready to 
start our audit hopefully next month--and that the underlying 
policies and procedures have not been adopted to this point. 
The EAC has----
    Mr. Harper. May I? I hate to interrupt you, but how long 
did they have to adopt those policies or recommendations?
    Mr. Crider. In February of 2008, we issued our first 
finding that they did not have policies and procedures. And so 
it has been a year now. I understand they have a draft of those 
policies and procedures, that they are working on those. But 
like I say, we are very concerned that we are already looking 
at--we are starting April here and we don't have some of the 
underlying accounting issues resolved. And I think that there 
are some issues involving GSA that need to be looked at and 
resolved by the Commission in order to make this process go 
smoother in the future.
    Mr. Harper. Prior to that first audit, had anyone contacted 
you from EAC to ask for assistance or say, ``Look, we realize 
we have a problem; can you help direct us'' prior to that audit 
time?
    Mr. Crider. We have had ongoing discussions about some of 
the things that we are missing, such as the A-123 evaluations 
and the internal control issues that needed to be addressed. 
But we did not have a formal report at that point. But we have 
had communication with the executive director. And they were 
aware of some of it, and they were trying to address some of 
the issues.
    But one of the problems with the EAC is it is a very small 
agency. It has to comply with just about all the other Federal 
requirements that are out there. And it is somewhat 
overwhelming for a small agency, sometimes, to have to do all 
this stuff. So they have to rely on, sometimes, outside parties 
to help them. And that I think has been one of the issues, is 
trying to get the right resources in place to get some of this 
stuff done.
    Mr. Harper. And I certainly don't want to put words in your 
mouth, but are you saying they are really at this time not on 
the path that you think they should be?
    Mr. Crider. They are getting there. But I think there is a 
lot of work to be done. Like I said, they just adopted their 
strategic plan last week. So there is going to be some problems 
with the financial statements this year. Like I said, we are 
hoping that--we are expecting to see some significant 
improvements; at least that is what we are hoping for. And we 
are willing to work with the EAC to try to make sure those 
improvements get done, so we would like to see some 
improvement. There is a lot of work to be done yet.
    Mr. Harper. And I know that your office recently hired the 
former general counsel of the EAC. How do you deal with that 
person when it comes to reviewing or looking at anything 
involving the EAC?
    Mr. Crider. Whenever we hired Ms. Hodgkins as my general 
counsel, she prepared lists of all the items that she had 
worked on in terms of policy procedures and documents, and 
whether or not attorney-client privilege attached to those 
documents. And she will recuse herself from working on any of 
those matters.
    We have entered into a separate memorandum of understanding 
with another Federal agency, that if there are issues that we 
need outside counsel, that she cannot help us with, then we 
will go to the outside counsel. And we have also set up a 
separate secure filing system that, if we are working on things 
that she was involved with as part of the EAC, that she will 
not have access to any of that information.
    Mr. Harper. Are you satisfied that that is working well?
    Mr. Crider. Yes, it is. I am satisfied with that.
    Mr. Harper. If you had to identify the single biggest 
problem that you see that still exists with EAC, what would you 
say that was?
    Mr. Crider. The lack of the policies and procedures and 
lack of an internal control structure.
    Mr. Harper. And your recommendations on how to fix that?
    Mr. Crider. Is that they need to get their policies and 
procedures in place. They need to establish their internal 
control structure and do the risk assessments that are required 
by A-123 to identify any weaknesses that they have, and address 
their accounting and their underlying accounting issues.
    Mr. Harper. Thank you, Madam Chair. With that I yield back 
the balance of my time.
    Ms. Lofgren. Thank you. I would turn to my colleague from 
California Congresswoman Davis.
    Mrs. Davis of California. Thank you. Thank you, Mr. Crider. 
In your report you cited a lack of expertise on the part of the 
stated election officials as the reason for lapses in 
documentation. And I wonder, how do you feel the EAC could best 
train those officials? What role do they really play and how do 
you see that they could be better suited?
    Mr. Crider. I would characterize it maybe a little bit 
differently. I am sorry if we maybe led you down the wrong 
path. But they are very qualified out in the States in terms of 
their function, their operations and what they do. What they 
lacked experience was, this is the first time many of them have 
gotten Federal money, and that they did not have a full 
understanding. And HAVA is a very unusually written law. There 
is a lot of vagueness in HAVA. But the State people are very 
very qualified to do their job.
    Like I say, this is the first time they have received 
Federal money, and there was a lack of policy and procedures on 
the part of the EAC in guidance that had been put out from the 
first couple of years. And the EAC has started several things 
the last couple of years in terms of trying to help with that.
    They now have established an advisory policy where if a 
State has a question on something, they can submit a question 
to the EAC and try to get the issue up front before it becomes 
a problem.
    We have done some outreach with the EAC when there are NAS 
meetings. We will go out as a part of the EAC and try to help 
provide training as to what our audits are and how we go about 
doing our audit. And the EAC as a part of that presentation 
will then do what are the recordkeeping requirements; what the 
are the requirements that you need to make sure that you are 
adhering to, and things like that. So they are starting to move 
forward.
    Mrs. Davis of California. You cited the fact that this is a 
small agency. Do they have the capacity to fully do that and 
really responding?
    Mr. Crider. They are responding. And sometimes it does take 
a while. And I do think that is a function of resources. And 
some of these issues are very complicated, that they do require 
a lot of research and a lot of analysis before they can be 
resolved. But I do think that additional resources in that area 
would be helpful.
    Mrs. Davis of California. You also mentioned that the 
inspector general, your audits have been based on looking at 
States that really had spent the most money that were audited. 
And I am just wondering, are there other factors really at play 
in terms of what you should be focusing on?
    Mr. Crider. Well, we also take a look at the single audit 
reports that were issued by the State auditors and by the CPA 
firms that did this, and we see if there are any issues that 
are identified there. We have gotten several requests from 
States to come in and do audits; or, if the EAC has specific 
concerns, they relay those to us. So it all comes into play. 
But the biggest issue right now is how much money has been 
spent.
    Mrs. Davis of California. And in terms of doing your own 
investigations, you contract out a number of those, as I 
understand it.
    Mr. Crider. Yes, we do.
    Mrs. Davis of California. Would it be better if you had the 
capacity yourselves to do more of those, and what kind of 
inconsistencies do you find in the contracting investigation?
    Mr. Crider. In terms of the contracting investigations, we 
contract with another inspector general's office to conduct 
those investigations. We have only had two of those since I 
have been with the EAC since 2006.
    I do not have enough work at this point for a full-time 
investigator. So that is one of the reasons why we are using 
outside investigators. If we start getting more investigative 
requests and more issues start coming up, then we will go back 
and take a look at the workload and say, okay, do I have enough 
work at this point for an investigator.
    Mrs. Davis of California. But you are satisfied that that 
has worked out?
    Mr. Crider. It has worked out very well because the 
agencies that we work with have been very good about giving us 
competent, capable investigators.
    Mrs. Davis of California. Thank you. Thank you, Madam 
Chair.
    Ms. Lofgren. Thank you. I would recognize my other 
colleague from California, Mr. McCarthy.
    Mr. McCarthy. Thank you, Madam Chair.
    I appreciate you coming before us again, and I remember the 
last time you were here. The one thing I recall back when I was 
actually a staffer and worked part within this committee, when 
Republicans took control in 1994, for the first time we did an 
audit inside this House. And one thing that we found, because 
no audit had ever been done prior, you actually didn't have the 
material needed to do it. So it took a couple of years to get 
there.
    And knowing where we were with the EAC, I guess maybe going 
down the same line as my colleague Mr. Harper did, if I could 
dwell a little more on the improvements, knowing that within 
the first audit there is so much you got to get--much like 
Congress when they never had the accountability before--that 
you are bringing it in now. It takes a year or 2 to get to make 
sure you have the basis to account. But have you seen the 
improvement needed?
    Mr. Crider. We are seeing some improvement. As I said 
earlier, there is a lot of improvement still needed. The CFO 
was just appointed here in February of 2009, so they have not 
had an opportunity to go in and do everything they need to do 
in terms of trying to get ready for the audit. So there is 
still a lot of work to be done.
    There is a lot of internal control reviews that need to be 
done. There is a lot of account analysis that needs to be done. 
And just working with our service provider in terms of just 
getting the basis for our financial statements so that we can 
have them in time and try to get this whole process done. We do 
expect to see some significant improvements this year.
    Mr. McCarthy. Well, maybe if I could step back. So when it 
gets finished--and I am looking from this end--should I have 
much higher expectations that a year was long enough to get 
this all improved, even though the CFO just hired?
    Mr. Crider. There will be improvements now. Whether or not 
there will--I am not going to sit here and say that everything 
will be fine, because it is not going to be. But we do expect 
to see improvements. And I believe the CFO has committed to 
trying to get some of the internal control issues resolved.
    But the other thing you need to remember is that the 
auditors were not able to complete their audit last year. So as 
we start this time and as we do more testing, as we start----
    Mr. McCarthy. They may not have found all the problems. 
They may not be aware of some.
    Mr. Crider. Right. They may not be aware of some of them. 
But I do believe the CFO will be there to provide us the data 
that we need to conduct the audit.
    Mr. McCarthy. Well, should I be able to expect, or this 
committee be able to expect, this time you will be able to find 
all the problems that are there?
    Mr. Crider. We are hoping. That is the best I can say at 
this point. Because until the audit is over, I cannot sit here 
and tell you.
    Mr. McCarthy. Shouldn't that be an expectation of ours, 
though?
    Mr. Crider. It should be an expectation. It is my 
expectation that we have all the issues identified this year. 
Whether or not we get there or not, I don't know. Like I said, 
that is my expectation.
    Mr. McCarthy. And like most audits you read before, when 
you put the page back where you have the discrepancies or 
concerns, will there be a timeline of what you have in there 
that you think these should be able to be accomplished by as 
well?
    Mr. Crider. As part of the audit recommendations is that 
the agency gives us an implementation plan where they lay out 
when they think they are going to be able to get things done 
by. And that is what we track them on. So we say to the agency, 
you have a problem in this area. If they agree with us, they 
will say, okay, this is our implementation plan. And they will 
establish benchmarks as to when they expect to get the stuff 
done, and that is how we track it.
    Mr. McCarthy. Now, do they give you the benchmark or the 
timeline, or do you work with them to decide the timeline?
    Mr. Crider. It varies. Most of the time we will go with 
their timeline. If we think it is not reasonable, we may go 
back to them and say, this is not reasonable and this is going 
to cause you a problem next year. But generally speaking, it is 
the agencies when they think they can get them implemented in 
terms of getting the problem fixed.
    Mr. McCarthy. Thank you, Madam Chair, and I yield back the 
balance of my time.
    Ms. Lofgren. Thank you. Mr. Crider, clearly we need to, I 
guess, speed up some of this action, and I am glad that we have 
the commissioners here to talk to us next about their plans.
    If I can summarize in plain language, it sounds like really 
what you are saying is we lack internal controls, we are not 
really where we need to be in terms of auditable material, and 
yet you haven't found any evidence that there has been 
misspending or corruption or anything of that nature. We just 
want to make sure that we have the controls in place so, on an 
ongoing basis, we will always know that is the case. Would that 
be a fair statement?
    Mr. Crider. That would be a fair statement.
    Ms. Lofgren. Good. Thank you very, very much.
    And we will keep the record open for 5 days for people who 
want to follow up with questions. And if we do have additional 
questions we would ask that you--well, Mr. Gonzalez has walked 
in. I don't know whether you had a question for the inspector 
general. We are just about to let him go. If you do, we will 
hold him further. No, he is waving off.
    We may have additional questions for you, and if we do we 
would ask that you answer them promptly. And we do appreciate 
your testimony today.
    [The information follows:]
    Ms. Lofgren. And now we will call up our second panel. We 
have today Commissioner Gineen Beach. Ms. Beach currently 
serves as the Chair of the Election Assistance Commission, was 
appointed by President Bush in October of 2008. Prior to her 
appointment Ms. Beach was an election counsel with this 
committee, as well as an election law advisor to former 
Maryland Governor Robert Ehrlich.
    Gracia Hillman is currently serving as the Vice Chair of 
the Election Assistance Commission and has served on the 
Commission since her appointment in 2003. Ms. Hillman's prior 
work experience includes having served as Executive Director of 
the League of Women Voters in the United States, the 
Congressional Black Caucus Foundation and the National 
Coalition on Black Voter Participation.
    We have Commissioner Donetta Davidson. Commissioner 
Davidson has served on the Election Assistance Commission since 
2005 and she served as Chair in 2007. Prior to her work with 
the EAC Ms. Davidson served as the Arapahoe County Clerk and 
then Colorado Secretary of State, where she was President of 
the National Association of Secretaries of State and President 
of the National Association of State Election Directors. Ms. 
Davidson also served on the Federal Election Commission 
Advisory Panel and the Board of Directors of the Help America 
Vote Foundation.
    And finally we have Mr. Thomas Wilkey. He is the Executive 
Director of the U.S. Election Assistance Commission where he 
has served since 2005. Prior to his work with the EAC, Mr. 
Wilkey was the former Director of the New York Board of 
Elections and Founder of the National Association of State 
Election Directors.
    As you know, your full statements are, by unanimous 
consent, made part of our official record. We ask that your 
testimony to us be about 5 minutes. And that will give us time 
to ask questions.

   STATEMENTS OF HON. GINEEN BRESSO-BEACH, CHAIRWOMAN, U.S. 
   ELECTION ASSISTANCE COMMISSION; HON. GRACIA HILLMAN, VICE 
 CHAIRWOMAN, U.S. ELECTION ASSISTANCE COMMISSION; HON. DONETTA 
 DAVIDSON, COMMISSIONER, U.S. ELECTION ASSISTANCE COMMISSION; 
AND THOMAS WILKEY, EXECUTIVE DIRECTOR, U.S. ELECTION ASSISTANCE 
                           COMMISSION

    Ms. Lofgren. And, Ms. Beach, may we begin with you?

                STATEMENT OF GINEEN BRESSO-BEACH

    Ms. Beach. Thank you. Good morning, Chairwoman Lofgren, 
Ranking Member McCarthy, and distinguished members of the 
subcommittee. Thank you for inviting us to be with you this 
morning.
    As you know, the Commission's mission is to assist in the 
effective administration of Federal elections. To achieve our 
mission, the EAC focuses on the following program areas: one, 
overseeing and administering the Federal voluntary voting 
system and testing certification program; two, conducting 
research that assists election officials in making 
improvements; three, developing clearinghouse materials to 
provide assistance to voters, election officials and the 
general public; four, managing HAVA funds; and five, 
administering the national voter registration form.
    In addition to the program work, we continue to strengthen 
internal operations. Last year the inspector general audited 
EAC's internal operations and provided us with 26 
recommendations. These recommendations have led to a road map 
to make improvements. And you will hear about those activities 
in detail from the Executive Director, Tom Wilkey.
    Moving forward, while EAC must fulfill our financial 
management and reporting obligations, we must also provide 
resources to core program areas in need, like our voting system 
division.
    Vice-Chair Hillman and Commissioner Davidson will describe 
in their testimony our efforts to devote considerable resources 
to the testing and certification of voting systems.
    As the Chair of the EAC, my dual focus will be devoting all 
available resources to conducting core activities, as described 
in the Help America Vote Act, and maximizing the use of our 
limited resources to meet all our objectives. We urge everyone 
to hold us accountable for our activities.
    To that end, the EAC recently adopted a strategic plan, and 
it is available on our Web site, which clearly outlines our 
guiding principles. Among them are bipartisanship, 
transparency, professionalism, accountability, integrity, 
fiscal responsibility and efficiency.
    The EAC has much work ahead of it and some of it will not 
be easy. We have got to make sure our internal structure is 
sound and complies with all Federal requirements. At the same 
time, we have to give staff the support they need to meet all 
of our HAVA requirements.
    I am confident we are on the right track and the right path 
to internal compliance and success in meeting all our HAVA 
requirements. And thank you. I look forward to your questions.
    Ms. Lofgren. Thank you.
    [The statement of Ms. Beach follows:]

    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
    
    Ms. Lofgren. Ms. Hillman.

                  STATEMENT OF GRACIA HILLMAN

    Ms. Hillman. Good morning, Chairwoman Lofgren, Ranking 
Member McCarthy, and members of the subcommittee. For the 
record, my name is Gracia Hillman.
    Madam Chair, with the passage of the Help America Vote Act, 
Congress set benchmarks and requirements for EAC to help 
improve the administration of Federal elections. The public 
expects improvement and EAC is committed to meet its 
obligations.
    My remarks today will highlight EAC's voting system testing 
and certification program. The Federal testing and 
certification of voting systems is one of the most important 
components of HAVA. It is also the first time that the Federal 
Government has undertaken this initiative, which started in 
2004 from ground zero, with very limited resources. Our 
progress to develop and implement the program has been steady.
    The National Institute of Standards and Technology is our 
very valuable partner in this initiative. And we appreciate 
that Congress has recognized the need for increased funding to 
support the development and implementation of the program.
    Today EAC testing and certification is a $2 million program 
with four full-time staff and four technical reviewers. This 
program has grown since 2006 when it had a budget of $700,000 
and one staff person. And that does not include the moneys we 
paid to the National Institute of Standards and Technology. By 
the end of this year we expect to have six full-time staff, 
plus the technical reviewers.
    We are mindful that this very small program has a very huge 
impact on elections in America. Madam Chair, it is important to 
remember that we are in a period of significant transition from 
the voting system technology of 2002 to the systems that are 
being tested today. The testing and certification process is 
complex. Some have been frustrated with the process and 
complained that it took too long to develop or is too 
complicated. Developing a new Federal program of this magnitude 
takes time. I am pleased to say that the program is operational 
and the process is working.
    Federal involvement and its obligation to transparency have 
created a dramatic change in the accreditation of laboratories 
and the testing and certification of voting systems. This 
change has created a culture shift that results in increased 
accountability to the public. Under HAVA NIST provides EAC with 
lists of laboratories that are qualified to test voting 
systems. EAC worked with NIST to make certain that all 
documents concerning laboratory accreditation are timely posted 
on the Institute's Web site.
    Additionally, all voting system test plans and reports that 
are submitted to EAC from the labs are posted on our Web site. 
These postings include correspondence and related documents.
    Perhaps more importantly, Madam Chair, is that all of EAC's 
constituent partners have played important roles in the 
development of our testing and certification programs. The 
public has a full view of these programs through EAC's 
clearinghouse. We have dozens of documents on our Web site and 
we regularly post new information. EAC is committed to being an 
active partner with our constituencies and a facilitator of 
information sharing and best practices.
    The growth of our programs has not happened in a vacuum. In 
2008 the General Accountability Office issued reports on EAC's 
lab accreditation and testing and certification programs. EAC 
did not have the resources to undertake such reviews on its 
own, so we found GAO's recommendations to be very useful.
    For example, EAC has enhanced its requirements concerning 
the financial stability of labs in accordance with GAO's 
guidance. The EAC program manuals for lab accreditation and 
testing are the rule books for how these programs operate. To 
enhance these programs, EAC has standard operating procedures. 
We are currently refining these procedures to incorporate 
several GAO recommendations. The result will be improved 
consistency of our technical reviews and approvals of 
recommendations from the testing labs.
    Madam Chair, and members of the committee, in my entire 
career I have encountered many challenging opportunities. 
Nothing has been more challenging than starting something new 
in Federal Government. In 5 short years, EAC's programs have 
evolved from concept to operational reality. This has not been 
an easy undertaking, but the benefits are measurable and 
rewarding. American voters deserve to know that their votes 
will be accurately and timely counted as cast.
    Thank you for the opportunity to address the committee 
today and I look forward to your questions.
    Ms. Lofgren. Thank you very much.
    Ms. Davidson, we would be pleased to hear from you.

                 STATEMENT OF DONETTA DAVIDSON

    Ms. Davidson. Thank you, Chairwoman Lofgren, and Ranking 
Member McCarthy and members of the subcommittee. My name is 
Donetta Davidson. My colleagues discussed where we have been. I 
am going to discuss and talk to you about where we are going.
    The cornerstone of the EAC's work is to support the voting 
system testing and certification program. I want to focus on 
three areas today: one, the voluntary voting system guidelines; 
two, accountability and transparency; and three, our partners 
with the National Institute of Standards and Technology.
    Last year the public comment period for the next iteration 
of the VVSG ended. After reviewing 3,200 comments together with 
NIST, we realized that some of these recommendations for 
standards could not wait. We concluded that the program would 
benefit by revising the current VVSG now, while continuing also 
to move forward in developing the next iteration.
    Updating the 2005 VVSG now will result in greater 
consistency, more rigorous testing and more efficiency overall. 
This process will be completely transparent and include public 
comment starting this summer. We will notify everyone when the 
public comment begins.
    Second, EAC's voting systems. We test voting systems to 
determine how they meet the guidelines. Separate and apart from 
that, we also proceed to watch how the systems perform on 
election day. Therefore, the quality monitoring program is an 
important program that provides an additional layer of 
accountability and transparency. It is EAC's big stick. This 
program enables EAC to independently ensure fielded voting 
systems are continuing to comply with requirements.
    Manufacturers are required to submit any anomaly reports, 
and failure to do so may result in suspension or 
decertification. Election officials can also submit voting 
equipment performance issues to the voting system clearinghouse 
at the EAC. And it is available for everybody to view.
    Finally, a critical resource for the EAC is a partnership 
with NIST. Thanks to the support Congress gave this year, we 
have $4 million for NIST to assist us. Activities that are 
funded will include initial and follow-up reviews of our voting 
system test laboratories and the development of test suites. 
The first of these test suites are currently available for the 
public to comment on, and we look forward to all the input that 
comes in.
    NIST is also conducting research for the EAC which will 
help us and help provide States with voting processes for 
overseas and military. We will identify best practices and 
security concerns for using fax, e-mail and Internet Web sites 
for both delivery and returned ballots. We anticipate the 
delivery of these reports by the end of the year. I encourage 
everybody to visit our Web site and read the thousands of pages 
we have already posted, including everything from the draft 
test plans to current letters that go to our registered 
manufacturers.
    EAC remains committed to devoting considerable resources to 
our voting system testing and certification program. Our 
program director is in the process of hiring two new employees, 
and they also recently contracted with Mark Skall who just 
retired from NIST to serve as one of our technical reviewers. 
While we have hired a number of financial staff recently, it is 
important to remember we are very dedicated to our programs as 
well.
    Thank you, and now I will turn it over to Mr. Wilkey, our 
executive director.
    Ms. Lofgren. Thank you very much.
    And if you would begin, Mr. Wilkey.

                   STATEMENT OF THOMAS WILKEY

    Mr. Wilkey. Good morning, Chair Lofgren, Ranking Member 
McCarthy, and subcommittee members. Thank you for inviting us 
to be with you today.
    Over the last few years, our inspector general presented 
several assessments of the internal operations of the 
Commission, and they included 52 recommendations, of which 14 
are closed. Make no mistake, some of the recommendations were 
tough. However, it was helpful to have for the very first time 
a complete list of the requirements we have to meet.
    We have a road map to compliance, and I appreciate the 
constructive criticism provided by our inspector general. 
Striking a balance between meeting the goals of HAVA and 
getting our internal structure in order has been a challenge. 
In the beginning our focus was on distributing the $3.1 billion 
of HAVA funds to the States, including setting up a process to 
audit and monitor these funds. Other HAVA-mandated activities 
included issuing the 2005 voluntary voting system guidelines, 
working on the next iteration of guidelines, establishing the 
first Federal Government voting system testing and 
certification program, completing 80 percent of the mandated 
research as required by the Help America Vote Act, and issuing 
guidance and best practices.
    Thanks to the hard work and dedication of our staff we got 
the job done. And for the past year, thanks to your support and 
to the other committees in Congress, we have had the resources 
to continue meeting the goals of HAVA and strengthen internal 
operations.
    Since the recommendations were issued, the EAC has hired a 
chief operating officer, chief financial officer, an accounting 
director, a grants manager and a contracting officer; 
contracted with a certified public accounting firm to assist 
with financial management, including a corrective action plan; 
submitted our first performance-based budget for the 2010 
budget to the Office of Management and Budget; began updating 
documentation of financial management processes, procedures and 
systems; adopted, after a long and comprehensive review, a 
strategic plan on March 27, 2009; and established a roles and 
responsibilities policy for the commissioners and the executive 
director. And we continue to work on the assessment of internal 
controls.
    These are just a few of the activities completed and 
ongoing. The full list is available in our written testimony 
and in our update to the inspector general for his semiannual 
report to the Congress.
    Starting a new Federal agency is not easy. And I hope that 
our experience will provide insight to other commissions who 
may face similar circumstances in the future. I am proud of the 
accomplishments of the EAC staff. The internal improvements we 
make will help support their efforts to meet the requirements 
of HAVA and to improve the administration of Federal elections.
    Thank you and I look forward to your questions.
    Ms. Lofgren. Thank you very much, and thanks to all the 
witnesses for your testimony.
    I would turn now to my colleague from California, Mr. 
McCarthy, for any questions he may have.
    Mr. McCarthy. Thank you, Madam Chair.
    To the executive director, Mr. Wilkey. I noticed in the 
last testimony, Mr. Crider, that he actually hired the EAC 
former general counsel to work in his office. So how long has 
the position of the EAC general counsel been vacant?
    Mr. Wilkey. I believe, Congressman McCarthy, the position 
has been vacant since last fall. We had an initial outreach to 
candidates, interviewed candidates and made an offer, and the 
Commission then decided not to fill the position with that 
particular candidate. We are going back out for another 
recruitment effort.
    Mr. McCarthy. Maybe if I can follow up a little on what you 
just said. Because when I look at the Civil Rights Commission--
and I ask unanimous consent to include in the record an excerpt 
from their minutes.
    Ms. Lofgren. Without objection.
    [The information follows:]

    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
    
    Mr. McCarthy. The staff director of the Commission on Civil 
Rights announced at a public meeting that the agency general 
counsel was leaving January 2nd. So is this the person you are 
referring to that you made an offer in writing?
    Mr. Wilkey. Yes, Congressman.
    Mr. McCarthy. Was the offer accepted?
    Mr. Wilkey. We had initially made an offer, and then there 
were some problems with the first offer in the letter. He never 
did accept, to my knowledge, the second offer.
    Mr. McCarthy. Well, why would the Commission in their 
minutes say he had accepted the offer and he was leaving the 
position?
    Mr. Wilkey. He did accept the first offer, yes.
    Mr. McCarthy. So you sent a letter, he accepted the offer, 
and it was rescinded somehow, some way.
    Mr. Wilkey. The next step after offering the position was 
to have it ratified by a tally vote of the Commission. And when 
that occurred the vote, the tally vote, ended up in a 2-2 tie.
    Mr. McCarthy. Is that a public meeting?
    Mr. Wilkey. No. Because it was a personnel matter, the 
position was debated in a personnel session and the offer was 
made and a tally vote was taken.
    Mr. McCarthy. In the letter of the offer, do you state in 
there that it will be upon the vote of the Commission whether 
the job will be accepted? Because how can you make an offer 
without the vote taking place?
    Mr. Wilkey. I don't have the letter in front of me, 
Congressman.
    Mr. McCarthy. Could you get me a copy of that letter?
    Mr. Wilkey. I would certainly be happy to, Congressman.
    Mr. McCarthy. I am just a little concerned here. You make 
an offer to an individual, they accept. They tell another 
agency it is--then behind closed doors, somehow the offer is 
rescinded. Was there some new discovery about this of why?
    Mr. Wilkey. Congressman, since it was a personnel matter, 
it was discussed at great length by the commissioners. 
Certainly the results of the tally vote we have provided on our 
Web site. The notations on the result of that tally vote are 
also a part of the record.
    Mr. McCarthy. Do you think that will hurt you? Knowing you 
don't have a legal counsel, I am just questioning is there any 
obligation, since you put something in writing offering a 
person a job--and I haven't seen the letter so I don't know if 
you say it is contingent on a different vote somewhere else, 
and you don't have the legal counsel to even back you up within 
the offer--one, does that create hardship in the future to fill 
the position? I noticed just today you have listed the new 
position again, but I am also wondering from a legal 
perspective if the Commission is somewhere legally bound 
because of the letter of the offer they sent in the first 
place? Have you had any outside counsel to advise you of this 
during this time?
    Mr. Wilkey. We did have some background information from 
the counsel at the Office of Personnel Management and we had, 
of course, counsel available to us. We presently have a deputy 
counsel and another associate counsel on staff, and that 
individual advised the members also.
    Mr. McCarthy. And what was their legal advice to the 
members?
    Mr. Wilkey. I did not--I am not exactly sure what that 
advice was, because that advice went directly to them. I 
believe that we followed all of the requirements that we had to 
make. And it was unfortunate, but when the tally vote was taken 
the commissioners took another approach.
    Mr. McCarthy. Is this how you handle all job offers? You 
send a letter out, they accept, and then you come back to a 
vote?
    Mr. Wilkey. The only two times that a tally vote is taken 
by the Commission on a personnel matter is with two positions; 
the position I currently hold and the position of general 
counsel. Those are the two statutory positions that are 
appointed by the Commission. All of the other remaining 
personnel, I do the recruitment and I make those appointments.
    Mr. McCarthy. Well, Madam Chair, the only thing I would ask 
in the end, that we follow up on this. If we could receive, 
one, the letter of the offer that went forward. Is the tally 
vote inside public?
    Ms. Lofgren. I think the testimony is that it is, yes.
    Mr. McCarthy. Okay. So if we can receive that, that would 
be helpful, and if we could follow up on this.
    Mr. Wilkey. Absolutely Congressman.
    [The information follows beginning on page 79]
    Ms. Lofgren. Mr. Wilkey has indicated that he will provide 
that information.
    I will turn now to Mr. Gonzalez for questions he may have.
    Mr. Gonzalez. Thank you very much, Chairwoman Lofgren. 
There is so much to cover. But I think, not to say it is a 
distraction, but it is of concern regarding expenditures and 
accountability within the Commission and, of course, the grant 
moneys that go out.
    And so I would like to concentrate more on the moneys that 
go out to the recipients and how that is followed. And I know 
that in the written statement, it does state that during the 
process collecting HAVA expenditure information from the 
States, the EAC recognized that States needed clear direction 
and resources. That you teamed up to provide additional--that 
you teamed up with the inspector general to provide additional 
training and added more resources on the EAC Web site.
    Internally, though, as far as personnel, not just a Web 
site. If they call in, or whatever the guidance that they 
seek--and I am talking about the recipients of our Federal 
dollars--who do you have in the way of personnel, the numbers 
of individuals that you have? It is my understanding that you 
have fewer people available than you did, let's say, just even 
a year ago to assist the grant recipients. And I will just open 
that to the Chairwoman first.
    Ms. Beach. Well, in the grants department and with the 
restructuring, we are hiring a grants manager that will--the 
grants manager has been hired and started on Monday. So we do 
have another personnel there dedicated to that program.
    Mr. Gonzalez. Is it you have a greater number of people in, 
let's say, this particular aspect of the programs than you did 
a year ago, fewer number? My understanding is that you don't 
have an actual person or the number of people you had 
previously to assist the grant recipients. And I don't know if 
that is true or not. You are going bring someone on board. 
Where will that put you relative to, let's say, where you were 
just a year ago?
    Ms. Hillman. Congressman Gonzalez, if I might. We do not 
have fewer people on staff to handle questions and provide 
technical assistance to grant recipients. We have the same 
number as we had a year ago. The addition of a grants person 
addresses some of the concerns that were raised by the 
inspector general and others with respect to being able to do a 
higher level of review. So we are increasing our internal 
process and accountability. But with respect to people 
available to the States and to our program grant recipients, we 
have the same number.
    Mr. Gonzalez. And the reason I ask that, obviously there is 
so much work to be done. And it has been a long process, and we 
all have our differences, but you have your mission and your 
goals. The last thing we need is anything that is internal in 
nature regarding expenditures by the Commission internally, 
indefinitely. The last thing we would need is someone out at 
the local State level that is a recipient, that in good faith 
attempts to administer the money, but makes a mistake. Because 
I don't think that you have someone that intentionally goes out 
there to misuse or misapply the moneys, but they are looking to 
you for guidance.
    One last question, and we can go many places, and we will 
be revisiting specific endeavors of the Commission throughout 
the year. But when I'm back home, and I don't know of other 
members, when I talk to my election officials or elected 
officials that understand that after Bush v. Gore, you know, we 
created the Help America Vote Act and such, and the Commission; 
and they really want to know what we have accomplished in all 
of these years. In light of, let's say, this is April, and we 
still don't have a United States Senator from Minnesota, we had 
election results last night in New York----
    Ms. Lofgren. Well, you can't blame the Commission for that.
    Mr. Gonzalez. What I am saying is, they really just want to 
know what work have we done that would have assisted these 
jurisdictions from avoiding the controversies we have today. I 
know you can always look to the courts and take that further 
step and take it out of our jurisdiction, but truly I think 
people are trying to get a handle on, what is it that we are 
doing up here to give guidance and assistance to these 
jurisdictions so that maybe we won't have these problems?
    And I would just ask, in Minnesota's case, is there 
anything that we have done, is there anything that we can do to 
avoid situations that have developed recently?
    Ms. Hillman. The Election Assistance Commission has 
published a number of best practices, shared practices under 
our management guidelines covering everything from chain of 
custody of voting systems, to production of ballots, to 
training of coworkers, to assist. As you know, many of the 
[inaudible] Are operating under State law. So EAC can provide 
guidance, best practices, and information to help the States do 
an assessment of what they can do.
    With respect to recounts, EAC has undertaken the required 
study of that, but unfortunately, our study was not published 
before Minnesota. I mean, in elections, you can't guess when is 
going to be the next challenging issue. But hopefully between 
lessons learned from Minnesota and the information coming out 
of our vote recount study, States will be able to learn, should 
they ever encounter a similar situation.
    Mr. Gonzalez. Thank you. My time has expired. I yield back.
    Ms. Lofgren. Thank you.
    Mr. Harper.
    Mr. Harper. Thank you, Madam Chair.
    Mr. Wilkey, on this offer that was extended on general 
counsel and accepted, was the revisit on the terms, was that 
just talking about some of the details; is that what that 
involved?
    Mr. Wilkey. Congressman, I can't recall, but I know that we 
issued two letters. The second letter, whether it was an issue 
with the start date or some other detail that was missing from 
the first letter, not having the information in front of me, I 
am not sure; but I certainly would be happy to provide you with 
all of that information.
    [The information follows:]
    Mr. Harper. Certainly on that first offer and acceptance, 
at that point, you thought you had your next general counsel 
and he thought he had a job; is that fair to say?
    Mr. Wilkey. Well, certainly in his case he thought he did. 
Whether the information regarding the tally vote was properly 
given to him or whether he understood it is another matter. But 
the second step--after the offer, of course--was to do a tally 
vote of the four commissioners.
    Mr. Harper. But it was your recommendation that he become 
your general counsel, or it wouldn't have come up for a tally 
vote, I assume.
    Mr. Wilkey. It certainly was not in my purview to 
recommend. That particular employee is a direct appointment of 
the four commissioners. As I indicated previously, the only two 
positions in the Agency that are directly filled by the 
commissioners is the position that I hold and the position of 
general counsel.
    Mr. Harper. But as the executive director, they are 
certainly going to want your input in this process.
    Who calls down the applicants to bring it up for a tally 
vote? Is that you, or a group, or somebody else?
    Mr. Wilkey. Certainly we all participated. I participated 
with the commissioners.
    Because of the way that the statute is structured, while 
the position is appointed by the Commission, the individual 
reports to me as their supervisor. So certainly they did ask 
for my opinion in the process, and I gave that opinion. It was 
a matter of our discussions behind closed doors as a personnel 
matter, and I did that.
    Mr. Harper. And was your opinion a thumbs-up or a thumbs-
down, without giving details?
    Mr. Wilkey. Without giving details, I believe it was a 
thumbs up.
    Mr. Harper. Okay. And in your opinion, he was qualified for 
this position, he had experience in another agency or area----
    Mr. Wilkey. Well, I will also include that there were two 
individuals that came down to the last two. That was debated by 
the Commission, and I actually gave thumbs-up to both of them. 
The question to me was, Would you be comfortable working with 
these individuals, and I said ``yes'' to both of them.
    Mr. Harper. Would you provide us with copies of all 
correspondence and e-mails regarding that hire?
    Mr. Wilkey. I would be happy to do so, Congressman.
    Mr. Harper. Including any internal notes.
    Mr. Wilkey. Absolutely.
    [The information follows:]
    Mr. Harper. Now, why was he not approved, in your opinion?
    Mr. Wilkey. I don't know. I believe that the tally votes, 
once you see the notations on the tally votes, that will speak 
for itself. And, of course, we will be happy to provide that to 
you and to the committee.
    Mr. Harper. Well, I just have to ask this question: Was it 
because he was a Republican?
    Mr. Wilkey. I don't believe so. I can't answer that. Again, 
the notations were part of the tally vote, and they have to 
speak for themselves.
    Mr. Harper. And you will provide that information to us.
    Mr. Wilkey. Absolutely, sir.
    [The information follows:]
    Mr. Harper. Now, obviously, being the rookie on the 
committee and learning this process--first of all, I know your 
job is not easy, and you have an important responsibility.
    I was on the Election Task Force as the token Republican in 
Mississippi in 2001 and had a great experience as we went 
through that process. But I would say that when I see things, 
use of taxpayer money, even if it's for something that is 
seemingly insignificant as T-shirts, I would say that that is 
not an appropriate use of taxpayer money in my opinion; and I 
hope we wouldn't do that in the future, and that we would look 
at that information.
    But thank you for your time. I appreciate it.
    Mr. Wilkey. Thank you, Congressman.
    Ms. Lofgren. Thank you.
    Congresswoman Davis.
    Mrs. Davis of California. Thank you all.
    I wanted to go back to Mr. Crider's statement, and 
initially to the commissioners, to give you an opportunity to 
speak to the fact that there was some concern that a lot of the 
hires were more or less top-heavy positions and not some of the 
midlevel positions that would have helped with the 
certification process in the different States. And I just 
wanted to give you an opportunity to respond to that.
    Is that an assessment that--justifies why some of those 
hires were more at the top-level positions?
    Mr. Wilkey. Congresswoman, we only saw the testimony of the 
inspector general this morning, and we may have some 
differences of opinion on how individuals were categorized. 
Certainly, as I indicated in my testimony and in my remarks 
earlier, we had a great deal of work to do in the area of our 
financial administration.
    I agree with our inspector general and his comment that, 
while we are small, we still had to meet the very same 
requirements as the big agencies in the Federal Government. And 
certainly they had a lot more individuals to be able to handle 
that. And so that was eye opening to us.
    We have met that head on. We have brought in some very 
talented individuals so that, hopefully, when our audit comes 
up again this year, you will see a dramatic difference in how 
it looks between the 2 years.
    Mrs. Davis of California. Thank you. I think recognizing 
that it is important to establish morale at a small agency and 
to really get up and running, that's somewhat understandable.
    Just going back to my colleague, and as I understand it--it 
is a small issue, but I think sometimes it is kind of symbolic. 
Again, let me just give you an opportunity, if you would like, 
to explain the T-shirt issue in terms of the number of people 
that you had on staff and the cost. Is there something in this 
that we are not getting that really you would like to just 
explain briefly so that people go away with a different 
impression?
    Mr. Wilkey. Certainly, Congresswoman.
    When that issue was first raised with me and the idea was 
raised with me, I certainly had some concerns myself. However, 
we wanted to do something for a noncash employee incentive. And 
so I directed our chief operating officer, our contracting 
officer, and our human resources specialist to reach out, to 
research the various regulations and rules, particularly with 
regards to the Office of Personnel Management, to get their 
take on it. They informed us that it had been done, certainly, 
in other agencies as provided for under the statutes and under 
the regulations; and it gave our employees some pride in our 
agency.
    We do a lot of outreach. We have meetings of our various 
boards. And I think our employees enjoyed having the 
opportunity to wear something that had a symbol of our agency.
    Would we do it again? Given the concern that has been 
raised, Congresswoman, I doubt that it would happen again. But 
we certainly took great care. And I certainly reached out to 
someone, for example--our contracting officer, who has been in 
the Federal Government for many years, has an unlimited 
warrant, level three, as a matter of fact--and he gave me what 
I thought was a reasonable response and allowed us to move 
forward.
    And whether we would do it again, I think is questionable, 
Congresswoman.
    Mrs. Davis of California. Thank you. Does anybody else want 
to respond?
    Okay. One of the roles that you play is working with the 
States. And we are also looking here at fraud--not fraud and 
abuse, but really how people can be more efficient and lean.
    Are you able to intervene if you are aware of some 
practices that really aren't working for people? I mean, can 
you play that kind of activist role, or are you really in the 
role of responding to requests and interests that the States 
have?
    Mr. Wilkey. Congresswoman, I know that Commissioner Hillman 
mentioned in her testimony earlier something that we are very, 
very proud of, and that is our management guidelines and our 
quick-start guides. They have been overwhelmingly received by 
election administrators all over the country. There are some 16 
or 17 of them now on a wide range of election administration 
issues, from counting absentee ballots--which they are probably 
going to need in New York in the next few days--to other 
activities, including UOCAVA, poll worker training, and a 
number of others. These go directly into the hands of local 
election administrators, some 7,000 of them.
    That is what we feel, in addition to working with our 
colleagues at the State level, something that we can do to get 
information directly into the hands of local election 
administrators. And they have been well received.
    So we try to make efforts such as that. Certainly, in the 
audit area, we do so also. It is my responsibility, once the IG 
gives us an audit----
    Mrs. Davis of California. If I could just interrupt, do you 
see yourselves in a role as well in terms of--not making policy 
necessarily, but providing some advice, even to the extent of 
Internet voting for military, or overseas voting? Is that an 
area that you expect to weigh in on at some point?
    Ms. Davidson. Right now, currently we have the first study 
that was given to us by the National Institute of Standards of 
Technology on Internet. It included several things--fax, 
anything that was really moving the ballots out faster.
    And they are in their second phase now of providing us with 
best practices and security issues for fax and Web-based and 
Internet. So we expect that to come out. And from there, then 
we will be giving guidelines, or really best practices, to 
everybody.
    Obviously, we take what States are doing currently and 
study--and that is what NIST is doing currently, really 
reviewing what the States are doing and how they have moved 
forward.
    Mrs. Davis of California. Thank you.
    Thank you, Madam Chair, for the additional time.
    Ms. Lofgren. Thank you.
    I turn to the gentleman from Alabama.
    Mr. Davis of Alabama. Thank you, Madam Chairwoman.
    I will probably not take the full 5 minutes, but I wanted 
to just ask one question in particular of the three 
commissioners who are here.
    Let me try to get some self-assessment from the Commission 
about whether you were surprised by the findings of this audit. 
Was this news to you or, based on your own work on the 
Commission, did you see some of these findings coming?
    I will start with vice chairman, former chairwoman, Ms. 
Hillman.
    Ms. Hillman. The recommendations and findings of the 
inspector general, the substance of those were very helpful.
    When EAC was established in 2003, there was no place we 
could go to know the full breadth of what we had to do to 
establish EAC as a Federal agency in compliance with Federal 
requirements. And so we were building the house and the 
foundation at the same time, with our responsibilities to get 
requirements payments to the States, to do the HAVA-mandated 
study, to figure out how to staff the Commission, and also to 
be mindful that there were things that we were going to have to 
do.
    So I would say that, for the most part, there were no 
surprises to me. The frustration was, how could we possibly 
come up to speed in such a short period of time, and finally 
having to accept that we couldn't, that we were just going to 
have to do the very best that we could to sort of prioritize 
the items.
    And we are well on our way; we are light years away from 
where we were 2 years ago.
    And I would say that it is constructive. And I would think 
for Congress, I think that the General Services Administration 
can play a very valuable role to small commissions if they 
could only staff and resource themselves to do it.
    I think there was an assumption on Congress' part that we 
would get that kind of technical assistance from a place like 
GSA or OPM, or even the Office of Management and Budget. And I 
will say that the Office of Management and Budget was probably 
the most helpful of the three agencies. What I am afraid of 
is--I call it the ``bottomless pit,'' are there more items we 
don't know about--and I think the inspector general will 
address that in the next audit. It may reveal some things that 
we don't yet know we are supposed to have in place as a Federal 
agency.
    Ms. Lofgren. Ms. Beach, would you or Ms. Davidson like to 
briefly weigh in on that same question, the extent to which you 
were surprised by the findings of the audit?
    Ms. Beach. Well, I will say when I first became aware of 
the audit, I was actually counsel to this very committee, so--
--
    Mr. Davis of Alabama. I knew I recognized you from 
somewhere.
    Ms. Beach. So I certainly was surprised.
    But now in this new role and recognizing the challenges 
that a new agency has, and having now the road map and being 
aware of what we can do, I think we are on a good way and a 
good path to fulfilling all our obligations and working towards 
our goals.
    Mr. Davis of Alabama. Let me raise one other thing that may 
be a little bit less dramatic, but it jumped out at me, the 
fact that apparently the Commission is having some trouble 
filling midlevel staff positions. And if I am reading this 
correctly, there is a significant number of full-time positions 
that have not been filled.
    Am I reading that right?
    Ms. Hillman. I don't think so. I am going to defer to the 
executive director. There are some new positions with this 
budget, once we got out of the continuing resolution, that are 
now being filled. But I wouldn't say that we are having 
problems filling the positions.
    Mr. Davis of Alabama. Mr. Wilkey, you are nodding your 
head.
    Mr. Wilkey. Congressman, no, at this time, we haven't.
    We had, initially, problems filling our CFO position. There 
is a lot of competition for CFOs, and we found that out. 
Because there is a cap on the salary, while we had a number of 
very good candidates, they were not willing to take the salary 
that we were willing to offer.
    Mr. Davis of Alabama. Let me interrupt you just enough to 
point out the sentence--and maybe the confusion is this is not 
from the report; it is something that is referenced in the 
document I have. It says, ``Some advocates remain concerned 
that not enough midlevel staff have been employed to carry out 
EAC's problematic responsibilities.''
    Does that resonate with you at all, Mr. Wilkey, the 
concerns about not having enough midlevel staff to do some of 
the basic operating work of the Commission?
    Mr. Wilkey. No, I don't agree. No one has suffered. We 
filled some very, very important positions on our financial 
end, based upon the results of our audits and our conversations 
with OPM and OMB, who fully supported us in this.
    I took the step to have OPM, for example, come in and 
evaluate every single job in our Agency, to do an assessment 
and an evaluation of the salary level and so on to see if they 
were appropriate for that job title.
    We will continue. And my goal is that we have reached the 
capacity in a number of areas; however, as we move forward, 
additional employees will be in our certification and testing 
program. And we are making great strides. We are bringing two 
additional people in.
    We are working with a university in the State of Georgia, 
who has the responsibility for the voting system testing and 
testing program in the State of Georgia and has some terrific 
graduate students. We are working with that university. We 
continue to bring graduate students in to work with us. They 
are our future.
    As a matter of fact, Congressman, I am working with a 
university in your home State, Auburn University, which was the 
first university in the Nation to have a graduate program in 
election administration. And I am continuing to work with them 
and providing opportunities at the ground level.
    So I assure you, Congressman, as well as the members of the 
committee, that our program activities will continue to be met, 
and we will continue to make resources available to all of our 
program units as we move along.
    Mr. Davis of Alabama. Thank you.
    Ms. Lofgren. I will just follow up with a couple of 
questions.
    We realize that you started from scratch and that you have 
made an effort to move forward. But at this point, I think out 
of the 29 recommendations in the assessment from February of 
2008, I think only 9 have been done, at least that's the report 
that we got--if that's not correct, tell me. And whatever the 
number is, I would like to know whether you expect that all of 
them will be done; and if not, what assistance do you need to 
get them all done.
    Mr. Wilkey. Madam Chairman, as we were completing our 
assessment and giving further information to the inspector 
general for his semiannual report, we sought the assistance of 
some outside help to look at it, people who have been in this 
arena for many years. And we came upon the fact that there were 
some 30 of those recommendations that were really duplicate 
recommendations, and so we sought to consolidate those. So the 
reports that you will be getting now will focus in on where we 
are.
    We certainly have a road map to get there. There are issues 
that will be coming up that we will close within the next 
couple of months--I see on my list here, some by June 30, some 
by the 31st of July, then again in August and September. I 
asked staff last night, knowing that we would be here and that 
we had just recently come across this discrepancy, to give me 
an updated listing of where we are in terms of those 
recommendations and our blueprint for doing that. And I 
certainly would offer this for the record.
    Ms. Lofgren. We would be happy to receive that and review 
it.
    [The information follows:]

    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
    
    Ms. Hillman. Madam Chair, if I might just also add that 
some of the recommendations couldn't be implemented until 
others had been done. For example, we needed the chief 
financial officer in place for other kinds of policies to be 
developed.
    So I would expect, once the core staff coming out of the 
inspector general's recommendations are in place, we will see 
the evolution of some of the others. And we should be--we will 
be in a very different place by the end of the year.
    Ms. Lofgren. Well, that is good to hear. And I realize 
that, although some of these recommendations may not have the 
stature of the testing program, which is key, and all these 
other things, we just have to get them done so that people can 
have confidence. And I know that you recognize that.
    I just have one final question, and it really relates to 
the research department. As you will recall, was it last year 
that the general counsel's office and the research department 
were criticized or accused of altering research? I am not 
saying that was true, untrue, false, or indifferent. But there 
was a recommendation that there be a peer review process so 
that, you know, that could never come up again.
    Has that assessment been done? Has it been approved? Is it 
in place now?
    Mr. Wilkey. Congresswoman, we have taken the steps that 
every single document, in particular our research documents, 
are vetted by our Standards Board and our Board of Advisors. As 
you know, under HAVA, we have a 110-member Standards Board and 
37-member advisory board. And now all of our research 
activities will be presented to them for review, either 
directly at their meetings, or we are using a virtual Web site 
to get----
    Ms. Lofgren. Well, the recommendation was that there be 
some formal peer review process. Are you suggesting that this 
kind of Commission oversight is the formal review process?
    Mr. Wilkey. This is part of the review process.
    I can tell you that, for example, in our management 
guidelines program, we are careful to bring in a working group 
of State and local election officials, depending on what 
subject it is and if they have expertise in that area, to work 
with us as part of a peer review.
    Ms. Lofgren. Well, maybe what I can do is ask you to send 
us your peer review assessment process.
    Mr. Wilkey. Absolutely.
    [The information follows:]
    Ms. Lofgren. And then we will take a look at it and see--
maybe we can have a dialogue on whether we have a meeting of 
the minds on whether that process was really what we thought it 
was going to be, and have some further discussions if we have 
questions.
    And on that note, I would note that we have a lot of work 
to do. We do thank you for your service. I am thinking, this is 
the spring. Towards fall we ought to have a follow-up here to 
see where we are on these audit issues, as well as some of the 
other items you are working on, but specifically the IG's 
recommendations, in the hope that we can check off a bunch of 
boxes.
    So, with that, if there aren't further questions, we thank 
you for your testimony. The record will be held open for 5 
days. If members have additional questions, we will forward 
them to you and ask you to respond as promptly as possible.
    Thank you very much. This hearing is adjourned.
    [The information follows:]
    [Whereupon, at 11:28 a.m., the subcommittee was adjourned.]

    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]


</pre></body></html>
